   THE OVERSIGHT OF STATE 

MEDICAID FRAUD CONTROL UNITS 





                  Richard P. Kusserow
                  INSPECTOR   GENERAL




OAI-01-87-00015                         AUGUST 1988
                                               TABLE OF CONTENTS 




TRANSMllTAL            MEMORANDUM

EXECUTIVE SUMMARY

INTRODUCTION            ..................................................................................................... 1 


   Background ......................................................................................................               1

   The 01 Oversight of the MFCUs .......................................................................                           1

   Purpose and Objectives .....................................................................................                    2

   Scope ...............................................................................................................           2


PERFORMANCE               INDICATORS .............................................................................. 4 


    Performance Indicators in Perspective ..............................................................                           4

    Performance Indicators for MFCUs ..................................................................                            4

    Recommendations ............................................................................................                   6


MINIMUM       STAFFING REQUIREMENTS                                ........................................**................~..... 12 


    Discussion ........................................................................................................            12 

    Recommendation .............................................................................................                   14 


ADDENDUM          .*...........*.............................................................................................      17 


    Requirements for Full-Time and Part-Time Employees ..................................... 17 

    Expanding MFCU Fraud Detection Authority ................................................... 18 


APPENDICES          ......................................................................................................... 20 


   Appendix 1.......................................................................................................              20 

   Appendix 2 .......................................................................................................             21 

   Appendix 3 .......................................................................................................             22 

            DEP.ART.MENT   OF HE.4LTH   & HL’1   4N %ER\I(‘E\                       cl”,-< -‘ ,rT>;kA*,., ,<;.., .(

                                                                                                                      -~--

             m   281)                                                               Memorandum
Dalr


Fro”         Assistant  Inspector    General
               for Analysis    and Inspections
Subjecl 	    OAI Final Report:     "The Oversight               of State    Medicaid        Fraud
             Control  Units,"  OAI-01-87-00015
TO           Larry D. Morey
             Assistant    Inspector       General
                for Investigations

             Attached  is our final   inspection      report  on the oversight    of 

             State Medicaid    Fraud Control    Units    (MFCUs).   It includes,   in 

             appendix  3, the comments of the National         Association    of MFCUs 

             to our draft   report  and our response to their         comments and 

             those of many individual     State MFCUs. 

            In the final       report,     we retain      and, indeed,      reinforce     our 

            recommendations         concerning      the establishment         of outcome-

            oriented     performance       indicators.         Performance     indicators      are 

            a valid     and important        management tool,         being used with 

            increasing      success in many fields.               Although   there are some 

            particular      sensitivities        involving      their    use in the law 

            enforcement      field,      we strongly      believe     they can be 

            effectively      adapted by 01 and individual                MFCUs themselves. 

            We offer     a number of specific           recommendations        addressing     how 

            this might be accomplished. 

            In view of the National             Association      of MCFU1s opposition          to 

            performance        indicators,      it is important       to stress      that 

            Federal     funding      to the States for the establishment                 and 

            operation      of MFCUs is not an entitlement               program.       It is a 

            grant program initiated             by Congress to contribute            to the 

            elimination        of fraud in State Medicaid           programs.        The Office 

            of Investigations           (01), as the Federal entity            responsible       for 

            the oversight         of the MFCUs, must assure that MFCUs are 

            advancing      this congressional           purpose.    In carrying        out this 

            oversight      responsibility,         it is quite legitimate          for 01 to 

            rely upon performance            indicators      in concert     with other review 

            mechanisms. 

            As we note in appendix     3, it is also important         to recognize

            that the development     of performance     indicators     is in accord 

            with recent congressional      history,    as reflected      in the Health 

            Care Quality  Improvement     Act of 1986 (P.L. 99-660) and the 

            Medicare and Medicaid     Patient    and Program Protection         Act of 

            1987 (P.L. 100-93).      These acts call      for State licensing

            authorities  and certain    other entities       to report     to the 

Page 2 - Larry     D. Morey 


Secretary    or his designee any adverse actions            they take 

against   health   care practitioners.      Moreover,       the reports 

must be timely     and include     specific information        on the 

actions   taken and the practitioners       involved. 

Our second major area of recommendations               concerns minimum 

staffing     levels    of MFCUs. Here, in response to concerns 

raised    by MFCUs, we changed our recommended minimum from 10 

professional       positions     to 7 to 10. Although       we still    feel 

that in nearly       all cases it is important         to establish     a

minimum of 10, we recognize           that there are States where a 

lesser    level might be more appropriate           for a particular

period    of time.       Accordingly,    we lowered our recommended 

minimum to a range of 7 to 10. The 01, we believe,                    is best 

suited    to determine       the actual   number. 

In accord with this change, we have also removed our 

suggestion    that waivers     be allowed,      and instead    have urged

that MFCUs with less professional            staff   than the newly

established     minimum be allowed      a phase-in      period  to reach 

that minimum.       We think   that such an approach will          allow for 

more equitable      and simpler    administration. 

We appreciate     the assistance  that you and your staff     provided 

us in conducting     this study.    We also appreciate  the 

cooperation    extended by the MFCU representatives     with whom we 

spoke.     If you have any questions,     please let us know. 

                              EXECUTIVE SUMMARY 


PURPOSE     AND OBJECTIVES

This inspection was conducted to help the Of&e of Investigations (01) within the Office
of Inspector General (OIG) strengthen its oversight of State Medicaid Fraud Control
Units (MFCUs). It had two major objectives: (1)to determine to what extent and in
what manner 01 might rely upon performance indicators as a way of determining the ef­
fectiveness of MFCUs and (2) to assessto what extent and in what manner 01 might rely
upon minimum staffing requirements and/or ratios as a measure of effectiveness.



The inspection was based primarily on three lines of inquiry: (1) discussionswith repre­
sentatives of 01, the 37 current State MFCUs, and the National Association of Medicaid
Fraud Control Units; (2) a review of data that MFCUs submit to 01; and (3) a review of
various reports concerning MFCUs.

FINDINGS

l	   The MFCU directors expressedstrong general support for performance indicators:
     35 of the 37 directors (95 percent) agreed that performance indicators could be “a
     useful means of oversight of the operations of State MFCUs.”

l	   At the same time, they raised a number of concerns about how 01 might use or
     misuse performance indicators when making judgments about individual MFCUs.
     In this regard they stressed:

            the differencesthat exkt in the authorities and working conditions of MFCUs,

            the dfferences in the complexity of merent typesof cases, and

            the distortions that indicators can causein MFCUperfomtQnce.

l	   Only 16 of the 37 MFCU directors (43 percent) reported they use performance
     indicators in their own offices. Among them, most tended to focus on process
     elements, such as casesopened, worked, or cleared.

l	   Of the 37 directors, 27 (73 percent) felt that the minimum requirement of 3
     professional staff was too low for an MFCU to carry out its responsibilities in an
     “effective and efficient manner.” They emphasized that an MFCU operating at this
     minimum level would be too limited in the type of casesit could handle, vulnerable
     to major disruption if a single staff member left, and probably would not be able to
     generate enough casesto keep an attorney busy.

l	   There is substantial variation in the averageprofessional staff size of MFCUs.
     From 1984through 1986,the range was from 4.7 to 251.8. During that time, 12 had
     an averageprofessional staff of 9 or less and 18 had an average of 10 or more.
     Currently, 16MFCUs have 9 or fewer professional staff.

RECOMMENDATIONS

l	   The 01 should incorporate the use of performance indicators aspart of its oversight
     of MFCUs. Toward this end, it should amend the MFCU regulations at 42 C.F.R.,
     section 1002,315(d) to allow for performance indicators to serve as a factor in
     considering an MFCUs reapplication for certification.

l    In this regard, 01 should:

            introduce performance indicators on a gradual bak,

            strivefor consensuson what indicators should be used,

            useexistingdata sourcesto developindicators,

      -    focus on performance over a 2- or 3-year period, and

            avoid an over-reliance on indicators.

l	   As a start, 01, through policy issuancesto the MFCUs, should establish the
     following set of performance indicators:

            indictments per professional staff,

            indictments per $100 million Medicaid expenditure,

            convictionsper professional staff,

            convictionsper $I 00 million Medicaid expenditure,

           dollar judgments per professional stafi and

           dollar ju&ments per $100 million of Medicaid expenditure.



                                             ii
0	   After 1 or 2 years of experience in using performance indicators, 01, in consultation
     with the MFCUs, should develop some outcome-oriented standards that could
     serve as an important reference point in recertification reviews.

l	   The 01 should increase the minimum staffing requirement from 3 professional
     positions to 7 to 10 professional positions. It should amend the MFCU regulations
     at 42 C.F.R. Section 1002.313to stipulate that the total complement of staff must
     include at least 7 to 10 professionals trained as attorneys, auditors, or investigators.
     In so doing, it should allow for a phase-in period for existing MFCUs with less than
     7 to 10 professional staff.



The National Association of Medical Fraud Control Units and many individual MFCUs
submitted comments reflecting concerns about our recommendations. Their comments
and our reaction to them appear in appendix 3.




                                             ...
                                             111
                                    INTRODUCTION 


BACKGROUND

In 1977,when Medicaid had grown to become a $17 billion program (Federal/State ex­
penditures), the Inspector General for the Department of Health and Human Services es­
timated that at least $653 million of that amount was improperly paid because of
fraudulent or abusive practices. An increased awarenessof this situation, which
threatened the integrity of the program, contributed to the passagein October 1977 of
the Medicare-Medicaid Anti-Fraud and Abuse Amendments to the Social Security Act.

This legislation currently authorizes the Federal Government to fund 90 percent of the
start-up cost and 75 percent of the ongoing cost of a State Medicaid Fraud Control Unit
(MFCU). It stated that the responsibility of such a unit is to conduct a statewide program
for investigating and prosecuting (or referring for prosecution) violations of all ap­
plicable State laws pertaining to fraud in the administration of the Medicaid program or
the provision of Medicaid-funded services.

There are currently 37 State Medicaid Fraud Control Units. In Calendar Year 1986,the
units were responsible for the expenditure of $50.6 million. They accounted for 405 con­
victions, 611 indictments, and $8,460,522collected in fines, restitutions, and overpay­
ments.

Prior to 1979,the Health Care Financing Administration bore responsibility for Federal
oversight of the MFCUs. However, beginning in 1979,the Administration’s awarenessof
congressional intent to strengthen and centralize fraud and abuse deterrence efforts led
to the transfer of MFCU oversight from HCFA to the Office of Inspector General.
Within the Office of Inspector General, the Office of Investigations (01) is the operating
component for the ongoing oversight of MFCU activities and performance.

The 01 Oversight of the MFCUs: The 01’s responsibilities, as stated in 42 C.F.R. Section
1002.315include reviewing applications for both initial certification and annual recer­
tification. For initial certification an MFCU must meet a number of basic requirements
concerning organization, location, relationships with the Medicaid State agency,unit
duties and responsibilities, and staffing.

For recertification, the MFCU must submit a reapplication which includes an annual
report. This report provides data on investigations, outcomes, complaints, recovery ac­
tions, projections for the succeeding 12 months, unit costs,and a narrative of the unit’s
performance. In deciding upon recertification, 01 must give “special attention to
whether the unit has used its resources effectively in investigating casesof possible fraud,
in preparing casesfor prosecution, in prosecuting casesor cooperating with the prosecut­
ing authorities.” The 01’s determination of whether or not an MFCU’s resources are
being used effectively is made by reviewing various materials such as the reapplication
and the annual and quarterly reports submitted by an MFCU, and periodically by con­
ducting an on-site visit. At this point, however, no specific standards or performance in­
dicators have been developed asa basis for determining an MFCU’s effectiveness.

The 01 increasingly has been interested in helping MFCUs improve their overall produc­
tivity. To this end, it has been suggestedthat less attention be devoted to process factors,
such as casesopened and closed, and more to outcome factors, such as convictions, funds
recovered, and contributions to successfulcivil monetary penalty (CMP) and sanction
cases.

PURPOSE     AND OBJECTIVES

The Office of Analysis and Inspections within the Office of Inspector General has been
asked by the Inspector General to conduct a brief inquiry to assistthe Office of Investiga­
tions in determining the directions it might take in strengthening its oversight of MFCUs.
The Inspector General is particularly interested in Federal oversight concerning the over-
all productivity of the MFCUs and their appropriate staffing levels.

After some discussion, we decided that the primary objectives of this inspection would be
twofold: (1) to determine to what extent and in what manner 01 might rely upon perfor­
mance indicators as a way of determining the effectiveness of MFCUs, and (2) to assess
to what extent and in what manner 01 might rely upon minimum staffing requirements
and/or ratios as a measure of effectiveness. We zeroed in on these objectives becausewe
felt their achievement could have an important bearing on the effectiveness of 01’s over-
sight of MFCUs.

SCOPE

The inspection was based primarily on three modes of inquiry conducted simultaneously.
The first involved a series of discussionswith representatives of 01, the 37 current State
Medicaid Fraud Control Units, the National Association of Medicaid Fraud Control
Units, and 6 offices of the U.S. Attorney. In all casesbut one, the representatives of the
State units were their directors. (In forthcoming references, we will refer to these discus­
sions as those held with the MFCU directors.) The discussionswith the offices of the
U.S. Attorney were brief ones and focused on their perspectives and experiences concem­
ing minimum staffing levels. Those offices were selected at random.

The second mode concerned a careful review of the data that MFCUs submit to 01. The
primary aim here was to identify the type of performance indicators that might be
developed from available data and to determine the appropriateness of the data for that
purpose.

Finally, the third mode centered around the review of a wide array of written materials
concerning MFCUs. These included the pertinent regulations; a GAO fact sheet,
Medicaid- Results of Certified Fraud Control Units; draft and final recertification review


                                             2

reports for MFCUs; congressional documents pertaining to fraud and abuse legislation;
and research materials concerning the use of performance indicators.
                           PERFORMANCE             INDICATORS

PERFORMANCE         INDICATORS      IN PERSPECTNE

In recent years, managers of both public and private organizations have indicated increas­
ing interest in performance indicators (or measures). Many of them have come to view
indicators as analytical devices that can be useful in improving productivity. They find
that the development of indicators can help their organizations focus their energies on
significant performance issuesand can alert management to existing or emerging
problems.

Performance indicators can focus on either processor outcome functions, or some com­
bination of the two. What is best will depend on the particular setting and the objectives
of management. If efficiency concerns are paramount, process indicators alone may be
sufficient. If effectiveness and overall productivity are of concern, then outcome in­
dicators are of greater importance.

Whatever the particular items being measured, performance indicators tend to be most
helpful if they are analyzed in a comparative perspective. Thus, indicators can be used to
compare the performance of similar types of agencies,of one agency over a period of
time, or of an agency against some previously established standards.

In this way, performance indicators can provide valuable clues about how well an or­
ganization is doing and can signal possible problems. They can also help managers ask
better questions about performance. If, however, they are used in too restrictive or rigid
a manner, without appreciation of the complexities that can affect performance, they can
be detrimental to organizational productivity. Managers who have used them successful­
ly have found that a balanced approach works best; performance indicators should guide
but not necessarily dictate decision making.

PERFORMANCE         INDICATORS      FOR MFCUs

We asked the State MFCU directors if they felt that performance indicators could be “a
useful means of oversight of the operations of the MFCUs.” The response was over­
whelmingly positive. Of the 37 we asked, 35 said yes.

In their elaborations, it was clear that the directors were not necessarily thinking of in­
dicators in the same way. Some discussedthem primarily in terms of process characteris­
tics; others more in terms of outcome factors. But the sentiment was strongly positive: if
used properly, performance indicators could serve asa legitimate vehicle of managerial
oversight for 01.

For example, one director said: “It is a useful way to gauge the effectiveness of different
units. If one unit is significantly better, they [01] could find out why and make recom-



                                              4

mendations to other units.” Another noted: “It’s a good beginning point to get into what
a problem might be.” Still another said: “In general, it makes sense. 01 has to know
what it’s getting for its money.”

While expressing support in general terms, however, most directors were quick to point
out some reservations and limitations. In some cases,in fact, these qualifications
substantially watered down the initial expressionsof support. Most of their concerns in­
volved how 01 might use or misuse performance indicators in making judgments about
individual MFCUs. The directors tended to be wary of 01’s using them in so rigid a man­
ner that they might lead to an inaccurate picture of an MFCU’s actual performance.

The most frequent concernsvoiced by the directors were of three major types. The first
concerned the substantial differences that exist among the MFCUs, particularly with
respect to their authorities and working conditions. Many, for instance, noted that it
would be unfair to compare convictions between an MFCU that has prosecuting
authority and one that does not.

The second involved the differences in types of cases. Many noted that casesinvolving
certain types of providers, such as clinics, nursing homes, or hospitals, tend to require
much more time and resources than do others--for instance, those involving pharmacies
or individual physicians. Similarly, others distinguished between fraud and personal
abuse cases. One director noted that up to 40 percent of his unit’s time tends to be spent
on physical abuse cases.

The third set of concerns had to do with the distortions that could be generated by the ap­
plication of performance indicators. Thus, activities that are not readily quantified, such
asthose that lead to State legislative or regulatory changesor that serve to deter fraud,
could be down played in favor of the ones being scrutinized by 01. Thus, one director
warned: “It’s easyto get convictions if that’s what you want. You get the defendant to
plead guilty to a misdemeanor charge, and you focus on casesinvolving pharmacies and
individual providers.”

Given these concerns, it is not surprising that the State directors do not tend to rely heavi­
ly on performance indicators in managing their own units. Of the 37 interviewed, only 16
(43 percent) reported that they tend to use them as a managerial tool. And of those 16,
most tend to focus on processelements, such as casedevelopment time or casesopened,
worked, or cleared.

This is not meant to imply that the directors are unconcerned about outcome elements.
They noted that by using a variety of mechanisms, such asregular staff meetings and
employee performance evaluations, they are able to stay on top of outcomes and factors
aiding or hindering them. Many added that their units are small enough that they do not
need formal systemsfor measuring outcomes; some noted that if their staffs were to in­
creasesignificantly, they would become more interested in such systems.
RECOMMENDATIONS

1. 	   The 01 should incorporate the use of performance indicators aspart of its oversightof
       MFCUs. Toward this end, it should amend the MFCU regulations at 42 C.F.R. Sec­
       tion 1002.315(d) to allow forpeflonnance indicators to serve as a factor in considering
       a unit’s reapplication for certijkation.

The 01 has the responsibility for the Department to ensure that MFCUs are using their
resources effectively. If it is to carry out that responsibility in an effective and equitable
manner, it must identify some specific outcome-oriented factors that are associatedwith
effective MFCU performance. Then, and of no less importance, it must use these factors
as significant and consistent reference points in its reviews concerning the recertification
of MFCUs. It is in this context that we urge the adoption of performance indicators.

2. 	   As it incorporatespegormance indicators into its reviewprocesses,01 should take
       care&l account of the substantial experiencethat existsin this area in government and
       private industry and in particular of the specific concernsraked by MFCU directors.
       In this regard, we recommend thefollowing to 01 as it pursues implementation:

       l     Introduce performance indicators on a gradual basis.

The 01, we feel, should move immediately to incorporate the use of performance in­
dicators. But it is extremely important that 01 start with only a few indicators that are
clearly and strongly linked with the mission of MFCUs. This will allow both 01 and the
MFCUs to adjust to the new mechanism and to develop experience-based insights on
how it might be improved.

       0     Strive for consensuson what indicators should be used.

The use of performance indicators will be much more successfulif they are perceived by
both 01 and MFCUs to be relevant and fair measures of outcome. The 01 should
regularly consult with the MFCUs about what specific ratios might be employed as in­
dicators and about what if any adaptations should be made in existing indicators.

       l     Use existing data sources to develop indicators.

In developing indicators, 01 should be wary of any temptation to add to the data-report­
ing requirements imposed on MFCUs. Although at a later time some additions may be
desirable, indicators at the outset should be based on existing data sources. This ap­
proach will make the transition to the new mechanism easier, and since substantial data
on performance are now submitted regularly, there should be no problem in developing
useful indicators.

       0     Focus on performance over a 2- or 3-year period.



                                               6

Given the complexity and duration of many fraud cases,a single year as a frame of
reference is probably too short a time to serve as a reliable indicator of performance. So
many distortions could arise that the value of the indicator as a basis for comparison
would be undermined. Two or 3 years would provide more valuable data. For that
reason, 01 might also find it desirable to seek a regulatory change that would extend the
recertification period from 1 to 2 years.

       a     Avoid an over-reliance on indicators.

Remember that they are just indicators after all. Used properly, they can help 01 ask bet­
ter, more strategic questions aspart of its oversight. They can help 01 gain a more ac­
curate determination of which units are performing well above the norm and which well
below, and why. They can &o help 01 determine which States are gaining ground com­
pared with their past performance, and which are falling behind, and why. Yet, even at
best, these indicators will not provide a complete picture of an MFCU’s performance.
Also needed are careful on-site observations and reviews of an MFCUs reports and reap­
plication materials. Each MFCU is different. Each has certain circumstances that affect
its performance. The 01’s mersight must be sufficiently fine-tuned that it takes account
of these circumstances in making recertification decisions.

At the same time, of coursq 01 has a responsibility to the Department and Congress to
keep them apprised of how well the MFCUs are doing in eliminating fraud in State
Medicaid programs. If a particular MFCU is achieving comparatively poor results, 01
must be concerned, even if those results are attributable to larger State-imposed con­
straints rather than to any failings of the MFCU itself. Thus, in a very real sense,01 is
reviewing a State’s performance aswell as that of the MFCU in effectively controlling
fraud. Performance indicators can help 01 maintain an overall perspective and account-
ability.

3. 	   As a start, Ol, throughpolicy issuancesto the MFCUs, should establish thefollowing
       set of performance inckators:

       0     indictments per professional staff,

       0     indictments per $100 million Medicaid expenditure,

       0     convictions per professional St&

       l     convictions per $100 million Medicaid expenditure,

       l     dollar judgments per professional staff, and

       l     dollar judgments per $100 million Medicaid expenditure.



                                                7

Each of those ratios addressesbasic outcome factors that are of interest to managers, 

legislators, and the public. Each can be developed from data regularly available to 01. 

In sum they do not offer a definitive assessmentof any particular MFCU’s overall perfor­

mance, but, especially if aggregated over a 2- or 3-year period, they can provide a good 

overview of performance and serve as a useful guide to more detailed analysis of a par­

ticular MFCUs operations. That analysis can also addressother elements of perfor­

mance not directly reflected in the numerical indicators. 


Why these particular ratios ? We selected them after carefully considering the responses 

of the MFCU directors and reviewing the extent and type of data available to 01. With 

respect to numerators, indictments and convictions were two obvious selections, for they 

provide tangible indicators of an MFCU’s impact in addressing Medicaid fraud. 


Understandably, those associatedwith MFCUs that do not have prosecuting authority 

are wary of being held accountable for actions that are beyond their scopes. They tend to 

prefer an accounting based on investigations referred rather than on indictments or con­

victions. This is a reasonable concern and should be considered by 01 when reviewing 

those particular MFCUs. But from a broader perspective, 01 and the Department still 

have a compelling interest in reviewing a State’s overall performance in bringing in indict­

ments and convictions and should therefore maintain a continuing focus on the results 

being attained in those areas. 


 Financial penalties can also serve as the culmination of an MFCUs work on a particular 

 caseand thus is an indication of impact that warrants close review. We therefore 

 selected dollar judgments as a third numerator. By dollar judgments, we are referring to 

 four categories of data that MFCUs regularly report to 01: fines imposed, restitutions or­

 dered, Medicaid program overpayment judgments, and other receivables judgments. At 

first we considered a numerator based on dollars actually collected, but we decided that 

judgments are sufficiently outcome-oriented and provide a better near-term indicator of 

an MFCU’s successin the area of financial penalties. 


With respect to the denominators, we chose professional staff (attorneys, investigators, 

and auditors) as one becauseit appears to be a reasonable indicator of the level of an 

MFCU’s effort and because most of the MFCU directors were favorable to it. Especially 

notable was the fact that about two-thirds of the directors felt that performance in­

dicators using indictments and convictions per professional staff were “worth serious con­

sideration.” 


Our second denominator, Medicaid expenditures, was a more difficult selection. Our 

aim here was to choose an item that would serve asa reasonable overall indicator of the 

scope of the Medicaid fraud and abuse existing in a State. Otherwise, if review is limited 

to indictments, convictions, and dollar judgmentsperprofmional stafl, an MFCU with a 

comparatively small staff but located in a State with a sizable Medicaid program could ap­

pear to have a much greater impact than is actually the case. 

Along the same lines, we initially considered total number of Medicaid providers or
Medicaid recipients as a denominator. But neither received majority support among the
MFCU directors, and in both cases,it appeared there would be some problems in obtain­
ing timely and accurate data.

Finally, on the basis of suggestionsoffered by some MFCU directors, we chose total
Medicaid expenditures per State as a denominator (or more precisely, total Medicaid ex­
penditures presented in increments of $100 million). By that, we mean total Federal and
State Medicaid dollars (program and administrative) expended in a State during a calen­
dar year. Such data can be readily obtained and serve as a reasonable proxy for the scope
of the job facing an MFCU. Generally speaking, the incidence of Medicaid fraud and
abuse in those Stateswith comparatively high Medicaid expenditures is likely to be
higher than those with lower expenditures.

For each of the six performance indicators identified, 01 might find it useful to make cer­
tain distinctions when using them for comparative purposes. It might, for instance, wish
to distinguish those MFCUs having prosecuting authority from those that do not. Similar­
ly, it might find it useful to distinguish indictments, convictions, and dollar judgments by
type of providers (since casesconcerning some types tend to take longer than those for
others). Making the latter distinction will add somewhat to the complexity of the data
gathering and presentation, but it may well be worthwhile. If 01 chose at the outset not
to incorporate this distinction into the compiled performance indicator data, it should
pay careful attention during its recertification reviews to the types of Medicaid providers
that are being indicted, convicted, and/or financially penalized. Such information can
help explain the performance statistics.
                                                        FisuPe   1
                                    NUMBER  OF INDICTMENTS     hND CONUICTIONS      PER
                                      PROFESSIONRL    STAFF, BY STATE, 1984-1986
                    NUUBER                                                                        .




                 NUMBER
                    7.                                                 CONU I CT I ONS   PER
                    6.                                                 PROFESSIONAL       STAFF
                    5.
                    4.




                                                           LT@IE
        source:         Quarterly       Statistical         Sunnarv
        peportr         submitted       bu MFCUs      to    Offioe
        of    Investigations
Figure 1 provides an illustration of the potential usefulnessof performance related data.
It presents data for a 3-year period (1984-1986) for two of the performance indicators
listed above: indictments per professional staff and convictions per professional staff.
The 30 MFCUs functioning throughout the period are represented. What is most strik­
ing in the figure is the wide distribution in performance, ranging from one MFCU that
averaged 7.03 indictments and 5.41 convictions per professional staff to another that
averaged .83 and .41, respectively, for the two indicators. For those well above or well
below the averagesfor the 3 years, the logical question for 01 and the MFCUs to ask is:
why? Are there unique factors beyond the control of the MFCUs that explain the sub­
stantial variance? Or are there certain factors attributable to the MFCUs that account
for the high or low performance?

                                                           Figure    2
                          NUMBER        OF  INDICTMENTS        fiND CONVICTIONS        PER          $100   H
                               OF    MEDICAID      EXPENDIIURES,BY        SIAfE,L984-1986
             NUMBER
                24
                21                                                                               INDICTMENTS      PER
                                                                                                 SlOO   MILLION
                      f




             NUMBER

    -           i[L                                         &:lit:!::NpER




                          ~Nm~n~~6~O~NmCH~~Q~O~Nm~n~~6~o
                                                      I~~~~~~~~~NNNNNNNNNNm
                                                                    STATE
        source:    Qualrterly                Statistical              Summary        xwports
        submitted     by MFCUr                 to 01 and           Mmdioaid          FinanoiaI
        Management       Report.               FY 1985



Similarly, one can note the extent of the spread between indictments and convictions in a
particular caseand pose questions about why certain Statesdeviate sharply from the
norm. This sort of representation and questioning can, of course, be directed to the
trends in any MFCUs performance over time. The insights that emerge would be useful
to 01 in conducting its oversight, but probably even more useful to the MFCUs as they as­
sesstheir own performance and seek ways to improve. Figure 2 presents two other perfor­
mance indicators: indictments per $100 million of Medicaid expenditure and convictions
per $100 million of Medicaid expenditure. These data add valuable perspective to the set
in figure 1. Compared with that data figure 2 shows that MFCUs that appear astop per-
formers when professional staff size is the frame of reference do not necessarily enjoy the



                                                                              10 

same status when overall Medicaid expenditures are considered and vice versa. Again,
questions arise the answersto which can provide a better overall understanding of perfor­
mance.

Finally, appendices 1 and 2 present data concerning the two remaining performance in­
dicators: dollar judgments per professional staff and dollar judgments per $100 million
Medicaid expenditure.

4. 	   Afier 1 or 2 years of experimce in usingperformance indicator, Ol, in consultation
       with the MFCUs, should dkvelopsome outcome-oriented standards that could serveas
       an important referencepoint in recerfificatin reviews.

It is vital that 01 view performance indicators in a developmental sense. That is, 01 must
take care to learn from its experience in using indicators and make adaptations in the sys­
tem as necessary. Responsivenessto feedback is especially important during the first
year or two when the new approach is being put into place.

After that initial period, 01, with the participation of MFCUs, should define and estab­
lish some performance-based standards. These should focus on key desired outcomes as­
sociated with MFCU activities and might be defined in terms of comparative rankings.
For instance, a standard might be set that over a 2-year period each MFCUs performance
should fall within a certain percentage of the national average or mean on a given in­
dicator. An MFCU falling below the standard would be required to develop a corrective
action plan, unless it had some compelling explanation to account for the aberration. If,
after a designated period of time, performance did not improve, 01 should take that
seriously into account when making a recertification decision. In those instances when
MFCUs performed well above the established standards, 01 could determine if some of
their practices might be adopted by other MFCUs. Then 01 might offer technical assis­
tance and information to encouragewidespread implementation of the successfulprac­
tices.




                                            11 

                      MINIMUM STAFFING REQUIREMENTS

DISCUSSION

Current MFCU regulations at 42 C.F.R. Section 1002.313(a)require that a unit “employ
sufficient professional, administrative, and support staff to carry out its duties and respon­
sibilities in an effective and efficient manner.” In addition, they specify that the staff must
include:

1. 	   “One or more attorneys experienced in the investigation or prosecution of civil
       fraud or criminal cases...”

2.     “One or more experienced auditors...”

3. 	   “A senior investigator with substantial experience in commercial or financial inves­
       tigation...”

These regulatory requirements were promulgated in 1978 at the inception of the
Medicaid fraud control program and were established without the benefit of an oppor­
tunity to review the actual operations of MFCUs to determine more precisely their mini-
mum staffing needs. However, the MFCUs have now been in operation for nearly a
decade, and in recent years the 01 staff has expressedthe concern that the current mini-
mum requirement of three professional staff may be inadequate to effectively and effi­
ciently carry out the current responsibilities of an MFCU, even one in a small State.
Given these concerns, we were asked to determine if there was sufficient rationale to in­
creasethe minimum and, if so, what the ratio of professionals should be.

We asked the MFCU directors if the current minimum staffing requirements were ade­
quate “to assurethat MFCUs carry out their responsibilities in an effective and efficient
manner.” The response was overwhelming negative, with 27 of the 37 (73 percent)
answering no. Collectively, the directors offered several persuasivereasonswhy the
three professional staff minimum was too low.

One reason concerned unit stability. The directors felt that a unit with only three profes­
sional staff would be vulnerable to major disruption if a single staff member left. For ex-
ample, a unit with only one auditor, investigator or attorney would be left operationally
immobile if any one of these professionals resigned, took extended leave or was other-
wise absent from the unit. Such a unit would, at least temporarily, be unable to conduct
audits, or investigations or would lack legal guidance and advice. In such an instance, the
unit could not effectively carry out its duties and responsibilities.

Also, the directors noted that one auditor and investigator probably could not generate
enough casesto keep an attorney busy. They generally felt that at least four investigators
or auditors were needed to keep one attorney fully engaged.



                                               12 

While the situation is not directly comparable, we noted in reviewing the activities of
U.S. Attorney offices that in Fiscal Year 1984the average caseload of an Assistant U.S.
Attorney was 130, a level of activity well beyond what an MFCU with one attorney, one
auditor and one investigator could hope to sustain. Moreover, during discussionswith
representatives of a number of these offices, we heard substantial confirmation for the
observation that more than two full-time equivalent’s worth of an investigator’s and/or
auditor’s time was necessaryto assurea steady flow in the pipeline of casesfor the Assis­
tant U.S. Attorneys. Accordingly, we conclude that in most instances an MFCU staff
which includes only one auditor and one investigator could not generate enough caseac­
tivity to efficiently utilize the staEattomey’s services.

Finally, the directors noted that a unit operating at the three staff minimum would be
limited in the type and complexity of casesit could handle. For example, one director
noted that: “A single nursing home casecan eat up to 500 hours of an auditor’s time”
Thus a higher minimum number of auditors and investigators would be needed to allow
an MFCU to effectively investigate certain complex casessuch as nursing home cases.

Moreover, interviews with the 01 staff persons who administer the Medicaid fraud con­
trol program indicate that higher minimum staffing levels will be needed to allow smaller
MFCUs to effectively carry out the responsibilities contemplated by 01. 01 is pursuing
policies to expand the investigatory responsibilities of MFCUs. For example, a
regulatory change is contemplated which would authorize MFCUs to engage in sophisti­
cated computer screening activities to identify fraudulent provider claims (see Adden­
dum). And 01 is currently encouraging MFCUs to establish telephone “hotlines” to
encourage concerned persons to directly report suspected casesof Medicaid fraud and
abuse. These new activities should increase caseactivity and generate an additional
workload which a smaller MFCU, as currently staffed, may be unable to meet.

The survey of directors provided no consensusasto the appropriate minimum staff size
or whether we should specify a ratio of auditors to investigators to attorneys. The direc­
tors gave answersranging from 4 to 10 regarding staff size; but 20 of the 37 directors felt
that no ratio of professionals should be specified.

Currently, the professional staff sizesof MFCUs vary widely. For those operating during
the 1984-1986period, the range M from an average of 4.7 to 251.8. During that period,
12 MFCUs had an averageprofessional staff size of 9 or less and 18 had a professional
staff size of 10 or more. Currently, 16 MFCUs have a staff of 9 or less. Of the 37 direc­
tors we contacted, 24 stated their current staff size was adequate.

In this context, it is also pertinent to note that the 1977legislation establishing MFCUs
stipulated that during any year Federal financial payments in support of an MFCU could
be as much as 1 percent of the State’stotal Medicaid expenditures. This meant that in
calendar year 1978,when Federal-State Medicaid expenditures were about $19 billion,
aggregate MFCU expenditures could have been ashigh as $190 million. Similarly in




                                             13 

Calendar Year 1985,when Federal-State Medicaid expenditures had grown to about $40
billion, total MFCU expenditures could have reached about $400 million.


                                                                Fisusc   3
                                 MFCU    EXPENDITURES              CLS A PERCENTACE       OF THE
                              CINNUlL     ONE    PERCENT          NhXIHUM    PAYMENT,     CY 1985
      % of     raxinun          cap




                                                                STATE
      Source    :   Qua~tesly            Statistical             Sunnary    Reports
      submitted          by     MFCU’r       to        OX and    Hedioaid     Financial
      Nanagcnent          Report,          Fy     1985




In practice, however, MFCU expenditures have been far below these maximum levels.
In fact, in 1985,the $47.5 million in MFCU expenditures accounted for only 25 percent
of the 1978maximum and 13percent of the 1985maximum. Moreover, as figure 3 il­
lustrates, none of the MFCUs in 1985achieved a level of expenditure that exceeded 50
percent of its 1 percent limit. The highest was at 42 percent of the cap. Most were well
below 20 percent.

Thus, although Congress did not necessarily intend that each MFCU spend at its maxi-
mum level, it is clear that MFCUs are operating at a level far lessthan Congresswas
prepared to spend to support them. In a report accompanying the 1977legislation, the
House Committee on Interstate and Foreign Commerce clearly and strongly expressed
its concern that “sufficient efforts have not been made to date to identity and prosecute
casesof Medicaid fraud in a number of States” and expressedits expectation that the
MFCU legislation would lead to more vigorous State activity “to assurethat those engag­
ing in criminal activities are identified and prosecuted.”

RECOMMENDATION

The 01 should increasethe minimum sta#ing requirementfrom 3professionalpositions to 7
to 1Oprofesionalpositions. Toward this erzd,it should amend the MFCU rq$ations at 42
C.F.R Section 1002.313to stipulate that the total complement ofprofessionaIstajj!must in­
clude at least 7 to IOprofesionals trained as attorneys,Auditors, or investigators.

We conclude that the minimum staffing requirements should be increased from 3 profes­
sional positions to 7 to 10 professionals. We arrived at this range based on several con­
siderations.



                                                                    14 

First, the need to maintain unit stability requires that each MFCU have at least two
auditors, two investigators and two attorneys for a total of six professional positions. As
noted, earlier, MFCUs with only one auditor, one investigator or one attorney are vul­
nerable to disruption by the resignation or absenceof one professional staff person. Re­
quiring an additional auditor, investigator and attorney would enhance stability because,
in the event of the absenceof one of them, the unit would still have in-house accessto
audit, investigative and legal servicesand could continue to carry out its investigative and
prosecutorial responsibilities effectively.

In addition to the six staff positions needed to maintain unit stability, four additional
auditor/investigator positions would be needed to keep the two attorneys fully utilized.
According to many MFCU directors, at least four auditors/investigators are needed to
keep an attorney busy. Thus it would seem that an MFCU staff with two attorneys would
require at least eight auditors/ investigators to keep an attorney busy. This suggestsa
minimum professional staff of 10 persons. This staff should be composed of at least two
auditors, two investigators and two attorneys with four other professional positions which
the affected MFCUs should be given discretion to fill with persons trained as auditors, in­
vestigators, or attorneys.

We realize that determining the ideal minimum staff is complicated by the fact that some
MFCUs vary in operation, particularly with respect to prosecutorial authority. (Some
MFCUs actually prosecute caseswhile others merely refer casesfor prosecution to the
State Attorney General or other State prosecutorial authority.) In recognition of this
variability, we suggestthat 01 consider developing a mandated minimum in the range of
7 to 10 professional positions. Moreover, we suggestthat for those MFCUs under the
minimum staffing level established, 01 allow them a phase-in period to reach the mini-
mum level.

We believe that the proposed minimum staffing level would not only enhance stability
and attorney utilization with respect to the smaller MFCUs, but would also allow them to
conduct the more complex type of investigations and carry out the broader fraud detec­
tion activities which 01 is encouraging MFCUs to undertake.

In proposing this higher minimum level, we do not intend to imply that it is necessarily a
sufficient level of staffing, even for an MFCU in a State with a comparatively small
Medicaid budget. It is merely a minimally acceptable level, below which, we feel, an
MFCU may not be able to effectively and efficiently carry out its duties and respon­
sibilities.

By increasing the minimum staffing requirement, the Federal Government, at relatively
little extra cost, would substantially increase the potential effectiveness of some of the
small MFCUs. This would apply most directly to the 16 currently certified MFCUs
having 9 or less professional staff members. In this context it is helpful to recognize that
from 1984 to 1986,MFCUs with 10or more staff accounted for 87.7 percent (1043 out of
1189) of all MFCU convictions.


                                             15 

With more staff, a number of MFCUs would also be in better position to take advantage
of some of the opportunities afforded by the recently enacted “Medicare and Medicaid
Patient and Program Protection Act of 1987” (P.L. 100-93). These include a provision al­
lowing for MFCUs to receive (1) a pro-rated portion of civil monetary penalties imposed
by the Office of Inspector General and (2) information, through a national clearinghouse,
on disciplinary actions taken by State licensing authorities against health care prac­
titioners and providers.

Finally, notwithstanding the need for a higher minimum staffing level, we reiterate the
importance of OIG also focusing on the measurement of outcomes. In general, it should
allow the MFCUs considerable flexibility in how they go about tkr work, but hold them
clearly accountable for the results. The establishment and intelligent use of performance
indicators would be important steps in that direction.




                                           16 

                                      ADDENDUM

As an addendum to this report, we include discussionsand recommendations on two ad­

ditional matters that were not technically part of the inspection but which are very much 

related to the oversight of MFCUs. The comments and recommendations emerge from 

the experiences of the OIG in conducting oversight of the MFCUs and in various ways 

tend to be reinforced by the most recent OAI inspection. Because both of the recormnen­

dations set forth will call for changesin the regulations governing MFCUs, we felt it best 

to include them here so that they would be considered along with the proposed 

regulatory changesconcerning performance indicators and minimum staffing levels. 


REQUIREMENTS        FOR FULL-TIME      AND PART-TIME       EMPLOYEES

The current regulations require that the professional staff of an MFCU be full-time
employees. (See 42 C.F.R. Section 1002.301and 1002.319(e)(4).) This requirement
reflects Congress’ intent that MFCUs bring together a specialized expertise in Medicaid
fraud by developing a team of lawyers, investigators and auditors. Hiring temporary or
part-time staff does not contribute to developing a team with such specialized expertise.
The Department has concluded that this congressional intent can only be achieved if the
MFCU hires full-time, long-term professional staff. (See 43 C.F.R. 32078-9, July 24,
1978 and Fraud Control Memorandum No. 79, May 4,1979).

The current regulations pose severalproblems. They are unclear as to when an MFCU
can hire part-time, as opposed to f&time, employees. In fact, the regulations provide
no expressauthority for MFCUs to hire any part-time employees. However, through
policy transmittals and responsesto individual queries, 01 has interpreted the regulations
to authorize MFCUs to hire short-term or part-time employees in non-professional posi­
tions (i.e., clerical, administrative and support positions). (See Fraud Control Memoran­
dum No. 79, supra).

Moreover, the regulations are unclear asto the requirements of a full-time employee. In
response to individual queries, 01 interprets the regulations to require that a full-time
employee work “exclusively” on Medicaid fraud control matters and work under the
“direct supervision” of the unit. However, this administrative interpretation is not ex­
pressly reflected in the regulations.

The lack of clarity regarding the requirements of full-time employees and the MFCUs
authority to hire part-time employees has resulted in confusion in interpreting the
Medicaid fraud control regulations. This confusion is reflected in the fact that questions
concerning these areas have been frequently raised by various MFCUs in their contracts
with 01 staff.




                                            17 

Recommendation

The Depmtment should amend the regulations to specify that a “full-time” employeemust
work exclusivelyon Medicaid fraud control matters and must work directly under the super­
vhion of the unit. The Department should also amend the regulatbns to expresslyauthorize
MFCUs to hire “part-time” non-professional St@.

This recommendation would eliminate the current confusion regarding full-time and
part-time MFCU employees, obviate the need for 01 to respond to frequent MFCU
queries on these matters and thus enhance 01’s administration of the program. The
recommendation would not implement new policies; it would merely require 01 to for­
mally publicize its current policy in this area by issuing a formal regulation.

EXPANDING      MFCU FRAUD DETECTION             AUTHORITY

The program regulations are unnecessarily restrictive and confusing as to the extent
MFCUs can engage in fraud detection activities. The regulations at 42 C.F.R Section
1002.319(e)(2) provide that Federal Financial Payment (FFP) is not available for expen­
ditures attributable to:

      “(2) Efforts to identify situations in which a question for fraud may exist, including
      the screening of claims, analysis of patterns of practice, or routine verification with
      recipients of whether servicesbilled by providers were actuahy received . . .I’

The literal language of this paragraph seemingly prohibits FFP for unit detection ac­
tivities, and this has resulted in confusion among units as to the extent to which they can
receive FFP for detection activities. But 01 has interpreted this paragraph to prohibit
FFP only for the routine program monitoring activities which are normally the respon­
sibility of the Medicaid agency (such asroutine screening, routine desk review of patterns
of practice of providers “flagged” by screens,routine Explanation of Benefits mailings,
etc.). (See,Division of State Fraud Control, Circular No. 5). According to the 01 inter­
pretation, this provision allows FFP for sophisticated detection activities, such asunder-
cover operations. However, 01 has not amended the regulations to clearly reflect this
interpretation.

Moreover, discussionswith 01 staff indicates that it would be desirable to expand MFCU
detection authority by allowing MFCUs to engagein screening activities which may ar­
guably overlap with Medicaid agency fraud detection responsibilities. This expanded
detection authority would make it possible for MFCUs to generate additional fraud cases
and would be particularly helpful in Stateswhere the Medicaid agencymakes an inade­
quate number of fraud referrals to the MFCU. The MFCU could compensate for this
shortfall by, for example, using computers to screen Medicaid provider claims and
analyze billing patterns to identify casesof fraud.




                                              18 

Recommendation 


The 01 should consider developinga regukztoryproposal to (I) clans that MFCUs can 

engagein sophisticated detection activities and (2) authorize MFCUs to engagein fraud 

detection screeningactivities. 


This expanded fraud detection authority would allow MFCUs to generate additional 

fraud casesand increase the number of fraud convictions. This recommendation would 

also give MFCUs more control over their overall caseload and make them less depend­

ent on Medicaid State agency casereferrals. This should enhance the effectiveness of 

some MFCUs especially those experiencing inadequate Medicaid agency casereferrals. 


Even with such a change, however, we recognize that it is important for Medicaid State 

agencies to play an active part in referring casesof potential provider fraud to the 

MFCUs. In our discussion with MFCU directors, a number of them expressedconcern 

that they were not receiving sufficient referrals of this kind. Accordingly, we have in­

cluded in the Office of Analysis and Inspection workplan for FY 1988 an inspection ad-

dressing the effectiveness of the State Medicaid agency referrals of potential provider 

fraud casesto the MFCUs. The inspection is now in the data gathering phase and is ex­

pected to be completed in early 

FY 1989. 





                                            19 

                                APPENDIX        1

                        DOLLRR
                             JUDWENTS
                                    PERPROFESS
                                             I ONClL
                           STCIFF,
                               BYSTATE,
                                      1984-1986

 DOLLfiRS
750,000      -

700,000      -

650,000      -

600,000      -

550,000      -

500,000      -

450.000      -

400,000      -

350,000      -

 300,000     -

 250,000     -

 200,000     -

 150,000         -

 100,000         -

  50,000         -




Source   : Quarterly    Statistical         Summary
reports     submitted   by HFCUs      to    Office
of Inuestigations


                                           20
                              DOLLRR
                                   JUDGEMENTS
                                          PER$100MILLIONOF
                             MEDICRID         STATE,1984-1986
                                   EXPENDITURES,BY

 DOLLARS
850,000            -

000,000            -

750,000            -

700,000            -

650,000            -

600.000            -

550,000            -

500,000            -

450,000             -

400,000             -

 350,000               -

 300.000               -

 250,000               -

 200,000               -

 150,000               -

 100.000               -

   50.000

                 0 EdlBlIl




Source       :    Quarterly      Statistical    Sumnavy   rwports
submitted            by MFCUs      to 01 and   Medicaid   Financial
Hanagenent             Report,     FY 1985


                                               21
                                     APPENDIX        3


COMMENTS         ON OIG DRAFT REPORT AND OIG RESPONSE                TO COMMENTS

We received comments on the draft report from the president of the National Associa­
tion of Medicaid Fraud Control Units (MFCUs), who is also the director of the
Washington State MFCU, and from representatives of 19 other MFCUs. Most of these
comments focused on our recommendations calling for the use of performance indicators
and expressedsubstantial reservations about these recommendations. The comments on
our recommendation calling for a minimum staffing level of 10 were fewer and less in-
depth, but here too, there were some fundamental concerns expressed.

The main concerns of the individual MFCUs are reflected in the comments of the Nation­
al Association of the MFCUs. Indeed, a number of the MFCUs specifically endorsed the
National Association’s comments. Because of that we present below, in full, the National
Association’s comments. We follow that with our response to MFCU concerns, first with
respect to performance indicators and then rninimtrrn staffing levels. We close with a
brief note concerning one of the recommendations presented in our Addendum.

NATIONAL     ASSOCIATION      OF MFCUs’ COMMENTS

Performance Indicators

A.    Analysis

The use of statistical output ratios such asindictments, convictions, funds recovered per
employee and size of State Medicaid Programs to evaluate the performance of a law
enforcement agencywould be inappropriate. The draft report is incorrect in stating that
the Units would concur in using such ratios asperformance indicators. And as the report
correctly details (on page 5), the Unit Directors made it clear that they consider that any
use of such ratios to compare Units by the Office of Inspector General would be par­
ticularly inappropriate.

Since the inception of the Fraud Unit Program, the Fraud Units, prosecutors, and attor­
neys general have consistently opposed attempts to base the evaluation of the Units upon
such numerical criteria. In the first year of the Program, HHS attempted to organize the
evaluation of the Fraud Unit Program with the same quantitative methods criteria that it
usesto evaluate the performance of its social service programs. A lengthy debate fol­
lowed that led to formal HHS recognition that the statistical output norms HHS applies
to social service program administration could not, and should not, be applied to
prosecutorial activity. The result was the transfer of oversight activity from HCFA to
OIG to facilitate evaluation of the Units on a qualitative basis by personnel with training
and experience in white collar crime prosecution, and who would, presumably, be able to
understand and individually evaluate prosecutorial decision-making. As the attached let-



                                             22 

ter of former Inspector General Thomas Morris observes,the use of quantitative, “cost ef­
fectiveness” measures, to evaluate criminal investigations and prosecutions is inap­
propriate and does not give a valid picture of Unit accomplishments.

Prosecutorial activity does not lend itself to standardized measurement, review and com­
parison. States have substantively and procedurally distinct legal and penal systems.
These individual differences effect the ability to prosecute white collar crime from State
to State. Some State laws restrict plea bargaining while others control the exercise of
prosecutorial discretion on disposition and sentencing matters. Even more basic is the
problem of comparing cases. Each is different and the handling of each must be assessed
in the context of its unique set of facts and circumstances. Some casesinclude confes­
sions, making possible a swift resolution. Others such asnursing home, hospital and
HMO cases,span multiple cost years with thousands of questioned documents which may
require years of investigation and months of trial. An exceptional number of variables ef­
fects the number of casesa MFCU receivesand, or, develops on its own, and how those
casesare resolved. They make any strictly numerical comparisons of the outcome of
criminal investigations and prosecutions subject to so many qualifications as to be virtual­
ly meaningless and their use without such qualifications inaccurate, arbitrary, and unfair.

An exclusive focus on the indictment, prosecution and monetary recovery ratios of the
Fraud Units would inevitable result in the creation of de facto “prosecution quotas.”
“Prosecution quotas” in any form raise obvious constitutional and serious ethical
problems for both OIG and the Fraud Units Prosecutors are sworn to do justice, accord­
ing to their independent and impartial judgment. The impartial application of that judg­
ment would be seriously compromised if Fraud Unit prosecutors are influenced by a
need to meet an indictment quota. This problem has long been a major concern of the
criminal bar and legal profession. The authoritative American Bar Association Standard
Relating to the Prosecution and DefenseFunction states as follows:

            S 3.9 (c) In making the decision to prosecute, the prosecutor should give no
            weight to the personal or political advantagesor disadvantageswhich might
            be involved or to a desire to enhance his record of convictions.

            Commentary to S 3.9 (c) The prosecutor should avoid measuring his record
            by the (conviction rate) of his office. He should never allow the decision to
            proceed in a particular caseto be influenced by his desire to inflate his record
            of successin obtaining convictions. Nor should he hesitate to reduce the
            charge or decline a prosecution becauseof such considerations.

Clearly, to use the number of criminal indictments, convictions, and monetary judgments
as Fraud Unit performance indicators, would directly conflict with these recognized
standards for preserving prosecutorial integr&y. The Office of Inspector General has a
clear duty to avoid creating a system of performance evaluation that encouragesunethi­
cal acts by prosecutors. Simply stated, a State prosecutor’s exercise of discretion in deter-




                                             23 

mining who to indict/prosecute should not and must not be influenced by a fiscal need to
achieve arbitrarily set Federal prosecution quotas.

The ultimate purpose of the Medicaid Fraud Control Unit Program is to deter Medicaid
fraud and patient abuse. These goals are achieved in numerous ways, none of which are
accurately accessedby simply looking at raw output data. Examples: many investigations
necessarily do not produce prosecutions, though they may ultimately play a significant
role in preventing fraud; patient abuse investigations are a statutory responsibility of the
Fraud Units, though again, they produce few indictments and virtually no financial
recovery; the Units are charged with oversight of the administration of the program,
which they discharge by regularly developing program recommendations which assist
their various Statesin eliminating opportunities to commit fraud; the Units aggressively
document civil recovery opportunities and report the same to single State agencies for
recovery; the Units take similar action with respect to conduct that can be sanctioned by
professional licensing boards. All of these activities are federally required and en­
couraged. Yet the proposed “performance indicators” would not only ignore these impor­
tant functions, but would actually penalize the Units for devoting sufficient time and
effort to these responsibilities.

Imposition of conviction oriented comparisons could also result in Units actually reduc­
ing staff to increase the ratio of convictions per professional, a result which does not fur­
ther the stated goal of detecting, prosecuting, and deterring fraud. The Attorneys
General and State prosecutors must be relied upon and supported in their use of resour­
cesto best accomplish these goals. A viable and credible Fraud Unit which aggressively
investigates and prosecutes Medicaid fraud and patient abusewill command respect
within the State’s law enforcement community, from the State‘s Medicaid Program and
from Medicaid providers. A quota systemwould work against recognized methods of ac­
complishing these goals while reducing the reputation of the Units to the status of “boun­
ty hunters”.


B.    Recommendations

As previously stated, the Units recognize the partnership of interest which exists between
Congress, the Office of Inspector General, and the Medicaid Fraud Control Units. We
share the common goal of achieving the congressional intent of identifying, investigating,
and prosecuting Medicaid Fraud, related crimes, and crimes of patient abuse. Coopera­
tion between MFCUs and OIG is essential if the MFCUs are to provide credible and ef­
fective law enforcement and the Office of Inspector General is to provide credible and
effective oversight.

Oversight of the Medicaid Fraud Control Units would be greatly improved if the Office
of Inspector General would return to its former practice of using law enforcement profes­
sionals with senior experience in white collar crime investigations, prosecutions, and
management of law enforcement agencies,to conduct its Fraud Unit evaluations. Only


                                             24 

through the use of such experienced staff can the Office of Inspector General adequately
assessthe vast array of variables that must be considered when analyzing a Unit’s perfor­
mance. Analysis of Unit performance should be based on the separate consideration of
what that Unit has accomplished in the context of its existing circumstanes.

Medicaid Fraud Control Units are one of the very few enforcement agencieswhich
handle casesfrom virtual inception to ultimate appellate review. Unlike a typical
prosecutor’s office, where criminal activity “presents” itself, MFCUs are uniquely depend­
ent upon the consistent flow of referrals from single State agenciesto maintain levels of
investigations and prosecutions. Many different approaches have been instituted by
Units to generate investigative leads (pro-active shopping, multi-agency task forces, tar­
geting, etc.). Individual State Medicaid program referrals and regulatory inadequacies
must be analyzed and taken into consideration when reviewing Fraud Unit performance.

Contrary to the premise taken in this study, if Units have “production” problems, the only
meaningful analysis is of caseflow, investigative effectiveness, and investigation manage­
ment. Fraud Units operate in a criminal justice systemwhich measures all outcomes by
the process followed. The proper measure of Unit performance would therefore be a
meaningful analysis of their management of the investigative process. An important role
of the Inspector General recertification processshould be to determine if the Unit is a vi­
able and active law enforcement entity with respect to the particular State and program it
polices. To this end, an analysis of a particular Unit’s function should be qualitative and
particularized, rather than based on a necessarilyfutile exercise in trying to do standard
comparisons of dissimilar and non-comparable circumstances. Effective oversight by the
Office of Inspector General also requires analysisand resolution of problems wherever
they exist, not just with MFCUs. For example, to cite a Unit for failing to achieve perfor­
mance goals (“quotas”) where an independent analysiswould have revealed the problem
existswith the quantity or quality of referrals from the single State agencywould result in
a Unit being unfairly sanctioned, a problem unresolved, and an oversight responsibility
unfulfilled.

Minimum Staffing Requirements

It is our understanding that the Office of Inspector General would not seek to retroactive­
ly apply any minimum staff requirements to existing certified Units. It should be recog­
nized that some States have very small Medicaid Programs with a resulting low number
of investigative referrals. Within this context, many of the smaller Units have been suc­
cessful in establishing a meaningful law enforcement presence to include orderly
investigations and prosecutions. The Association believes that five professionals as op­
posed to the study’s recommended 10would be the appropriate minimum staff require­
ment. Again, the realities of each State’s circumstances are of critical importance in
analyzing staff levels.




                                             25 

Conclusion

State MFCUs are staffed by highly motivated professionals who daily endeavor to suc­
cessfully discharge their responsibilities. While some Units may have “production
problems,” simplistic attempts to analyze those problems by using standardized output
statistics will improperly and unethically invade the province of prosecutorial discretion
by establishing an evaluation processbased on “quotas,” and so distort the complex vari­
ables of prosecutorial activities asto be essentially meaningless. These proposed in­
dicators will not help the Units in analyzing their own productivity, will result in
inappropriate criteria being used to make prosecutorial decisions, and will not provide a
measure of a Unit’s successin deterring fraud. Overall, they provide no way to assessthe
total positive impact the Units have in their State. We are not opposed to performance
evaluation, indeed aswe have often observed, we regard it as an important tool for
strengthening the Fraud Unit Program. But first, the methods chosen to conduct such
evaluations must accurately measure Unit performance.

Representatives of the Association would be pleased to meet you and/or any appropriate
staff to further pursue this issue.

OAI RESPONSE

Performance Indicators

At the outset we must note that the Federal funding to States for the established and
operation of MFCUs is not an entitlement program. It is a great program intended by
Congress to contribute to the elimination of fraud in State Medicaid program. The
Department, and 01 in particular, are responsible for assuring that this congressional pur­
pose is being advanced.

We must also note that the development of performance indicators as an element of
Federal oversight is in accord with recent congressional history, as reflected in the Health
Care Quality Improvement Act of 1986 (P.L. 99-660) and the Medicare and Medicaid
Patient and Program Protection Act of 1987 (P.L 100-93). These acts require that State
licensing authorities, medical malpractice insurers, and certain health care entities
report to the Secretary or his designee any adverse actions they take against health care
practitioners. Moreover, they are required to make these reports on a timely basis and to
include specific information on the actions taken against the practioners.

The concerns put forth by MFCUs appear to rest asmuch or even more in apprehension
about how outcome-oriented performance indicators would be used as an oversight tool
than in the idea of such indicators in themselves. We can understand their apprehension.
If implemented in a hasty, ill-considered manner, performance indicators could, indeed,
be counterproductive. It is for that reason that we stressedthat in adapting performance
indicators, the Office of Investigations (01) should:




                                             26 

      0    introduce them on a gradual basis; 

      0    strive for consensuson what indicators should be used; 

      0    use existing data sourcesto develop indicators; 

      0    focus on performance over a 2- or 3-year period; and 

      0    avoid an over-reliance on indicators. 


The last point is at the core of many MFCUs’ concerns. We recognized that from our dis­
cussionswith them and largely for that reason stated the following caution on page 7 of
our report:

      “...even at best, these indicators will not provide a complete picture of an MFCU’s
      performance. Also needed are careful on-site observations and reviews of an
      MFCU’s reports and reapplication materials. Each MFCU is different. Each has
      certain circumstances that affect its performance. The 01’s oversight must be suffi­
      ciently fine-tuned that it takes account of these circumstances in making recertifica­
      tion decisions.”

Further, the specific indicators we recommended concerning indictments, convictions,
and dollar judgments were meant only as a start. We intended that 01 and the MFCUs
examine their appropriateness over time and explore refinements and additions that
might be made in the years ahead. By no means did we intend, assome MFCUs seem to
have concluded, that 01 maintain an exclusive focus on these indicators.

We hope that this clarification will help to make our recommendations somewhat more
palatable to the MFCUs. The Florida MFCU’s response suggeststhat this could be the
case. It indicated that the use of indictments, convictions and dollar judgments by them­
selveswas “unacceptable.” But then it added: ‘These three performance indicators may
have some value if they were combined with other valid indicators.” That is precisely
what we would like to happen, with 01 and the MFCUs determining jointly those addi­
tional indicators.

What might also help in this regard is to reinforce our point about the gradual introduc­
tion of performance indicators. We recognize that their use would be a significant depar­
ture from past practice and would present particular sensitivities in the law enforcement
field. Thus, we suggestthat 01 and the MFCUs regard the first 2 years of their use as a
phase-in period, with a mutual commitment to identify and implement reasonable in­
dicators, addressing outcome and process.

As we reviewed the MFCU comments, we identified four major explanations for why
quantitative outcome measureswould be inappropriate for MFCUs and four general
recommendations concerning how 01 might approach its oversight responsibilities.
Below, we present each of these, in capsule form, and in each caseoffer a brief response.




                                             27 

      0    They would result in a de facto quota system.

Unquestionably, this was the most frequent and intensely felt concern about the adoption
of performance indicators. There were numerous statements about how such an over-
sight tool could lead State prosecutors to become “bounty hunters,” make them vul­
nerable to charges of prejudice by defense counsels,and compromise their ethical
commitment to maintain independent and impartial judgment.

These are serious concerns,which we share. However, we did not call for the estab­
lishment of quotas and, in fact, went to considerable length to suggestthat performance
indicators not be used in that fashion. We urged that after a l- or 2-year developmental
period, 01, with the participation of MFCUs, establish specific performance based stand­
ards, not quotas. Those falling below a standard would then be required to develop a cor­
rective action plan, UF&XSa compelling reason existed for its sub-standard performance.
The 01 and MFCUs should discuss,in advance,what kind of reasons might be regarded
as “compelling.”

The key question, it seems,becomes that of whether or not performance indicators,
despite our intentions, would become a “de facto” system of quotas. In this context, the
National Association asserts:

      “An exclusive focus on the indictment, prosecution and recovery ratios of Fraud
      Units would initially result in the creation of de facto prosecution quotas.”

It could well be correct. However, aswe have indicated, we are not by any means suggest­
ing an “exclusive” focus on these indicators, or, for that matter, any indicators. We see
them as one element of oversight to be accompanied by many other elements. In this
regard, we fully agree with the following comment by the Hawaii MFCU:

      “If the proposed performance indicators are intended to help unit managers to irn­
      prove their unit’s performance, there must be a balance between processfactors
      and outcome factors. If there is a breakdown in the process by which casesare
      handled by a unit there may not be a substantial indication of this breakdown if
      only outcome factors are examined.”

Moreover, with careful implementation by 01, we do not feel it is inevitable that perfor­
mance indicators will turn into de facto quotas. The California MFCU expresseda
similar view:

      “With respect to performance indicators, we believe it to be appropriate and useful
      for the agency charged with oversight to utilize objective criteria in the evaluation
      process. These criteria must be utilized with judgment which is fundamental to any
      valuative process. Based upon our experience, the availability of objective criteria
      provides a sound basis to be used in measuring performance. While the develop-



                                            28 

      ment of a quota system for the Units would be undesirable, I do not feel that the
      utilization of performance indicators would necessarily result in quotas.”

      0     They would ignore differences in the States’ legal and penal systems.

The MFCUs fear that in using a national set of performance indicators, 01 will lose sight
of particular features of individual State legal and penal systemsthat have an important
bearing on outcomes such as indictments, convictions, or dollar judgments. Some
MFCUs, they point out, have much more discretion and authority than others. Some
State court systemsare much more responsive than others. It would be unfair to ignore
these differences in reviewing an MFCU’s performance.

We agree. That is why the ratios we set forth are only indicators and should be accom­
panied by thorough on-site review, addressing the particular environment of an MFCU.
At the same time, from a national perspective, it is also pertinent to focus on the overall
results of a particular MFCU. If over a number of years, an MFCU is performing well
below a national norm, that reality is of relevance to a Federal oversight entity, even if
the reasons are more State-specific than MFCU-specific. In a broad sense,the Federal
financial support being extended is to the State government, not just to the MFCU.

      0     They would ignore differences in the type of casesbeing prosecuted.

Here, again, MFCUs are concerned that some important distinctions would not be made.
Some cases,such as those involving nursing homes, hospitals, or health maintenance or­
ganizations, are extremely costly and likely to span a number of years. If 01 were to
stressquantative measures of success,it would provide a disincentive for these more com­
plex cases. Similarly, patient abuse investigations, which seldom result in indictments or
financial recoveries, but yet are of considerable importance, would be discouraged.

Our response is the same as that noted above. The 01 should not use the indicators in a
rigid manner and should take those factors into account when assessinga particular
MFCU. Here, too, in arraying and reviewing performance data, it might find it helpful to
make certain distinctions--for instance, it might distinguish indictments, convictions, and
dollar judgments by type of provider and thereby facilitate an analysis of the degree of dif­
ficulty in the casesbeing prosecuted.

      l	    They would ignore the MFCUs’ dependence on referrals from State
            Medicaid agencies.

MFCUs are highly dependent on the extent and quality of the casesbeing referred to
them by the State Medicaid agencies. All things considered, where the quantity and
quality of the referrals are relatively high, the likelihood of high MFCU performance is
enhanced, and vice versa. If 01 failed to take this into account in assessingperformance,
its oversight, argue the MFCUs, would be faulty.



                                             29 

We agree. Moreover, we noted on page 20 of our report, that some MFCUs felt they
were not getting sufficient referrals and that the OIG should consider a regulatory
amendment that would clarify the MFCUs’ authority to engage in sophisticated detection
activities and in fraud screening activities. The Office of Analysis and Inspections in
Region III is now conducting an inspection that addressesthe extent and quality of refer­
rals from State Medicaid agenciesto MFCUs and will offer more specific recommenda­
tions concerning this matter.

      0	   The 01 should focus its oversight of MFCUs on their overall management of
           the investigative process.

The National Association and many of the individual MFCUs urged that 01 should key
its oversight to process elements such as caseflow and investigative effectiveness.
Through inquiry of this kind, they suggestedthat 01 would be able to identify any produc­
tion problems and hold MFCUs accountable for their performance.

We agree that such process considerations should be a vital element of the valuative ef­
fort. Perhaps they should even be the dominant element. However, we still hold to the
view that some quantitative measurements of a set of outcome valuables, such as indict­
ments, convictions, and dollars recovered should also play an important part in the valua­
tive effort.

It is quite reasonable, we believe, for the Congress and Department to be kept appraised
of the overall effectiveness of MFCUs, for which Federal financial support is provided.
It is certainly important in that regard to assessthe effectiveness of the investigative
process. But it is also important to be able to determine the extent to which that process,
however effective, is contributing to the broad purpose of eliminating fraud in the
Medicaid program.

In short, the Department and Congress have a responsibility to assesshow much and
what kind of impact the MFCUs are having in the States. Inevitably, this calls for a
broad frame of reference, one encompassing not just the MFCUs themselves but the
State criminal justice systemsaswell.

      0	   The 01 should conduct its oversight of MFCUs on a qualitative basis,using
           personnel with training and experience in white collar crime.

The MFCUs are concerned that the introduction of some quantitative outcome measures
will lead to a rigid “by-the-book” approach to evaluation of their performance--one that
will devote insufficient attention to the complexities of law enforcement.

We understand this concern. That is why we have underscored in this appendix and
throughout the report the need to use outcome measures in a balanced and careful man-




                                            30 

ner. We agree that qualitative evaluation is important and that individuals with expertise
in white collar crime should be involved in making those evaluations.

      0	   The 01 should conduct its evaluations of MFCUs on a unit-by-unit basis,
           recognizing the distinctive features of each unit and its operating
           environment.

The concern expressedhere is similar to that noted above--that some general measures
and rules will be used to assessall MFCUs.

Once again, our response rests in a call for balance. Clearly, on-site investigation and an
appreciation for the unique features of that site must be part of the evaluation process.
Yet it is also reasonable to have some yardsticks for assessingall MFCUs. It facilitates
consistency and fairness in the evaluation process. In this context, the following excerpt
from the California MFCU’s comments bear consideration:

      “...the development of objective criteria, if properly used, takes the ‘mystery’ out of
      performance evaluations. Further, the Unit’s ability to document enforcement and
      other activities strengthens, rather than weakens, our integrity. As each state is
      competing for its share of the state budget, so are we as a National entity vying for
      continued federal support. To the extent we are able to quantify the process
      through the use of objective data, we strengthen our case.”

      l	     The 01 should recognize that the ultimate goal of MFCUs is to deter
             Medicaid fraud and patient abuse.

It seemsreasonable to assume,as a number of the MFCUs do, that the activities of
MFCUs can have a significant deterrent effect on fraud and patient abuse,even if they
lead to little in the way of indictments, convictions, or dollar recoverences. Yet it is also
reasonable for an oversight agencyto rely upon something more than an assumption in
assessingthe significance of the deterrent effect in a particular State.

Therein lies a key question. What are some useful indicators of a deterrent effect? This
is a question which 01 and the MFCUs should explore jointly. If they can identify some
such indicators, they should develop and test them, along with those we suggested. Sure­
ly if the deterrent effect is to be used as a major justification for the effectiveness of
MFCUs, some such effort is essential. Otherwise, how are 01 and other concerned par-
ties to gauge how much significance to attach to deterrence?

Conclusion

We continue to feel that 01 should use quantitative outcome measures aspart of its over-
sight of MFCUs. Moreover, we believe that if 01 develops them with the participation of




                                              31 

the MFCUs and usesthem in a balanced and careful manner, most MFCUs will be sup­
portive of the approach.

The MFCUs’ deepest concerns rest in the rigid application of performance indicators in
a way that would lead, however, inadvertently, to a system of quotas. At a broad, concep­
tual level, however, most MFCUs see some value to the use of indicators in the way we
suggested. This was clearly suggestedin our telephone discussionswhen about two-
thirds of the MFCU directors felt that performance indicators using indictments and con­
victions per professional staff were “worth serious consideration.”

Performance indicators are being used with increasing successin other fields. In the law
enforcement field, there are particular sensitivities, asthe comments pointed out, that
must be addressed. But aswe have attempted to indicate, they still can serve as an impor­
tant part of the oversight process.

Minimum Staffhg Levels

In our draft report we recommended that the minimum staffing requirement for MFCUs
be increased from 3 to 10professional positions. This recommendation did not elicit as
much reaction as those concerning performance indicators. But most of those that did
respond felt it was too high. A number of MFCUs and the National Association sug­
gested that five would be a more appropriate minimum.

Even though we noted that 01 should be authorized to grant a waiver from the minimum
when “special circumstances” made it “unreasonable or unnecessary,”the respondents
still felt it was excessivefor the smaller States that would be affected. They noted that
the States with less than 10 staff were not necessarily lessproductive than the others and
that in some casesthey might not be able to generate sufficient political and financial sup-
port at the State level to function at the higher level.

We gave careful consideration to the concerns expressed. For the reasons stated in the
report, we still believe that in nearly all casesit is important to establish a minimum of 10
professional staff. However, we do recognize that there are Stateswhere a lesser level
might be more appropriate for a particular period of time. Thus, we have lowered our
recommended minimum from 10 professional positions to 7 to 10. The 01, we think, is
best suited to determine the actual number. In concert with that change,we have
removed our suggestion that waivers be allowed under special circumstances and instead,
have urged that MFCUs with lessprofessional staff than the established minimum be al­
lowed a phase-in period to reach that minimum. We think that such an approach will
allow for more equitable and simpler administration.

Final Note

In our draft report, we recommend that the Department amend the MFCU regulation to
(1) clarify that MFCUs can engagein sophisticated detection activities and to authorize


                                             32 

and (2) authorize MFCUs to engagein fraud detection screening activities. This and
another recommendation in the addendum were supported more by the experience of
the OIG in conducting oversight of the MFCUs than by the inspection itself.

Because of our limited data base on the issue and becausethe Region III Office of
Analysis and Inspections is conducting an inspection that will shed further light on it, we
have modified our recommendation to suggestthat 01 “consider” developing a regulatory
proposal concerning the MFCUs’ authority to engagein sophisticated detection activities
and in fraud detection screening activities.




                                             33 

